APPENDIX TABLE OF CONTENTS
Order of the New Jersey Supreme Court Denying
Petition for Certification (May 3, 2019)............ la
Per Curiam Opinion of the Superior Court of
New Jersey Appellate Division
(February 1, 2019).................................... .

2a

Bench Ruling by the Superior Court of New
Jersey Morris County Denying Firearms
Permit (March 14, 2018)............................

7a

Order of the Superior Court of New Jersey
Morris County Denying Firearms Permit
(March 14, 2018)...........................................

29a

Relevant Statutory Provisions

31a

Letter from Chief of Police
(November 21, 2017) ..

34a

Letter from Ciolek Appealing Against the
Decision of Chief of Police
(December 18, 2017).,............................

35a

Notice of Motion for Summary Judgment
(January 2, 2018)..................................

37a

App.la

ORDER OF THE NEW JERSEY SUPREME COURT
DENYING PETITION FOR CERTIFICATION
(MAY 3, 2019)
SUPREME COURT OF NEW JERSEY
IN THE MATTER OF
THE APPEAL OF THE DENIAL OF
DOUGLAS F. CIOLEK’S APPLICATION
FOR A FIREARMS PURCHASER,
(DOUGLAS F. CIOLEK,)
Petitioner

082561
C-832 September Term 2018
A petition for certification of the judgment in A003510-17 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification
is denied, with costs; and it is further
ORDERED that the notice of appeal is dismissed.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 30th day of April, 2019.
Is/ Heather J. Bate
Clerk of the Supreme Court

App.2a

PER CURIAM OPINION OF THE SUPERIOR
COURT OF NEW JERSEY APPELLATE DIVISION
(FEBRUARY 1, 2019)
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION

IN THE MATTER OF
THE APPEAL OF THE DENIAL OF
DOUGLAS F. CIOLEK’S APPLICATION
FOR A FIREARMS PURCHASER

Docket No. A-3510-17T2
On Appeal from Superior Court of New Jersey,
Law Division, Morris County, Docket No. L-0017-22
Before: FUENTES and VERNOIA, Judges
Appellant Douglas F. Ciolek appeals from a March
14, 2018 Law Division order affirming the Township
of Denville Police Department’s rejection of his applica­
tion for a permit to carry a handgun pursuant to
N.J.S.A. 2C:58-4(c) and denying his summary judg­
ment motion for an order declaring N.J.S.A. 2C:58-4(c)
and (d) and N.J.A.C. 13:54-2.4(d) unconstitutional. On
appeal, Ciolek argues that the “justifiable need” require­
ment for a permit to carry a handgun violates the
Second Amendment of the United States Constitu­
tion and Article I, paragraph 1, of the New Jersey
Constitution. Finding no merit to Ciolek’s contentions,
we affirm.

App.3a

To obtain a New Jersey permit to carry a firearm,
an applicant must “demonstrate [ ] that he [or she] is
not subject to any of the disabilities set forth in
[N.J.S.A.] 2C:58-3(c), that he [or she] is thoroughly
familiar with the safe handling and use of handguns,
and that he [or she] has a justifiable need to carry a
handgun.” N.J.S.A. 2C:58-4(c); see also N.J.S.A. 2C:584(d). In November 2017, the Denville Police Chief
denied Ciolek’s application for a permit to carry a
handgun because Ciolek did “not demonstrate a
justifiable need to carry a firearm in the State of
New Jersey.” Ciolek appealed the denial to the Law
Division and filed a summary judgment motion
requesting an order declaring that the statutory
justifiable need requirement and regulation! requiring
evidence of justifiable need violate the United States
and New Jersey constitutions.
Following argument, the Law Division rendered
a detailed oral opinion affirming the denial of Ciolek’s
carry permit application and denying his summary
judgment motion. The court entered an order and this
appeal followed.
On appeal, Ciolek presents the following argu­
ments for our consideration:

1 In pertinent part, N.J.A.C. 13:54-2.4(d) requires that a private
citizen’s application for a permit to carry a handgun include a “a
written certification of justifiable need to carry a handgun . . .
detailing] the urgent necessity for self-protection, as evidenced
by specific threats or previous attacks, which demonstrate a special
danger to the applicant’s life that cannot be avoided by means
other than by issuance of a permit to carry a handgun.”

App.4a
POINT I
THE COURT ERRED BY FINDING THAT THE
JUSTIFIABLE NEED PROVISIONS OF N.J.S.A
2C:58-4(c) & (d) and N.J.A.C. 13:54-2.4(d) DO
NOT VIOLATE THE SECOND AMENDMENT
OF THE UNITED STATES CONSTITUTION!.]
A. THE SECOND AMENDMENT IS AN
IN[DI]VIDUAL RIGHT THAT APPLIES TO
NEW JERSEY LAWS!.]
B. THE SECOND AMENDMENT RIGHT
TO KEEP AND BEAR ARMS APPLIES IN
NON-SENSITIVE PUBLIC AREAS WITHIN
NEW JERSEY!.]
C. ASSUMING A PROPER STANDARD OF
REVIEW IS EVEN NECESSARY, N.J.S.A.
2C:58-4(c) & (d) and N.J.A.C. 13:54-2.4(d)
VIOLATE THE SECOND AMENDMENT OF
THE UNITED STATES CONSTITUTION!.]
1.

IF NECESSARY, THE STANDARD OF
REVIEW SHOULD BE DERIVED FROM
THE EXPRESS LANGUAGE OF THE
SECOND AMENDMENT!.]

ii.

IF THE COURT REJECTS SUB-POINT i,
THEN ORDINARY STRICT SCRUTINY
SHOULD APPLY, NOT INTERMEDIATE
SCRUTINY!.]
a.

UNITED STATES SUPREME COURT
PRECEDENT AND OTHER FEDERAL
CASE LAW REQUIRE STRICT SCRU­
TINY!.]

App.5a
b.

NEW JERSEY SUPREME COURT
CASE LAW REQUIRES A STRICT
SCRUTINY ANALYSIS [.]

c.

THE PROSECUTOR’S RELIANCE ON
THE NEW JERSEY CASES OF
WHEELER, PANTANO, BURTON,
CRESPO AND SICCARDI AND THEIR
PROGENY IS WITHOUT MERIT AS
THESE CASES ARE EITHER ERRO­
NEOUSLY DECIDED OR IRRELE­
VANT [.]

d.

INTERMEDIATE] SCRUTINY “BAL­
ANCING” HAS ALREADY BEEN
REJECTED BY HELLER AND
MCDONALD [.]

iii. EVEN UNDER INTERMEDIATE SCRU­
TINY, NEW JERSEYS JUSTIFIABLE NEED
PROVISIONS DO NOT PASS CONSTITU­
TIONAL MUSTER.
POINT II
THE COURT ERRED BY FINDING THAT THE
JUSTIFIABLE NEED PROVISIONS OF N.J.S.A.
2C:58-4(c) & (d) and N.J.A.C. 13:54-2.4(d) DO
NOT VIOLATE ARTICLE I, PARAGRAPH 1 OF
THE NEW JERSEY CONSTITUTION[.]
A. THE RIGHT TO KEEP AND BEAR
ARMS IS INHERENT IN AND PART OF
THE NATURAL RIGHT TO SELF-DEFENSE
PURSUANT TO ARTICLE 1 PARAGRAPH 1
OF THE NEW JERSEY CONSTITUTION.
B. ASSUMING A PROPER STANDARD OF
REVIEW IS EVEN NECESSARY, N.J.S.A.

App.6a

2C:58-4(c) & (d) and N.J.A.C. 13:54-2.4(d)
VIOLATE ARTICLE I, PARAGRAPH 1 OF
THE NEW JERSEY CONSTITUTION^]
i.

IF A STANDARD OF REVIEW IS EVEN
REQUIRED, STRICT SCRUTINY IS THE
NECESSARY STANDARD OF REVIEW IN
THIS MATTER.

11.

EVEN UNDER INTERMEDIATE SCRU­
TINY, NEW JERSEYS JUSTIFIABLE NEED
PROVISIONS DO NOT PASS CONSTITU­
TIONAL MUSTER.

Ciolek does not dispute that he failed to make
any showing of justifiable need as required by N.J.S.A.
2C:58-4(c) and (d) and N.J.A.C. 13:54-2.4(d). His argu­
ments are limited to a challenge to the constitutionality
of the “justifiable need” requirements of the statute
and regulation.
Ciolek’s arguments are without sufficient merit
to warrant discussion in a written opinion, R. 2:113(e)(1)(E), and we affirm substantially for the reasons
in the Law Division judge’s thorough decision. We
add only that the justifiable need requirement in
N.J.S.A. 2C:58-4(c) and (d) has been found constitu­
tional in Drake v. Filko, 724 F.3d 426 (3d Cir. 2013),
cert, denied sub nom. Drake v. Jerejian, 572 U.S. 1100
(2014), and in our decision in In re Wheeler, 433 N.J.
Super. 560 (App. Div. 2013). We find no basis in the
record to depart from that well-reasoned precedent.
Affirmed.

App.7a

BENCH RULING BY THE SUPERIOR COURT
OF NEW JERSEY MORRIS COUNTY
DENYING FIREARMS PERMIT
(MARCH 14, 2018)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION: CRIMINAL PART
MORRIS COUNTY, NEW JERSEY
IN THE MATTER OF
THE APPEAL OF THE DENIAL OF
DOUGLAS F. CIOLEK’S APPLICATION
FOR A FIREARMS PURCHASER

Docket No.: MRS-L-17-22
Transcript of Hearing
Before: Honorable Salem Vincent AHTO, J.S.C.

[March 14, 2018 Transcript, p. 3]
THE COURT: Mr. Ciolek, come on up. All right, this
is in the matter of the application of Douglas
Ciolek. Your appearances please?
MS. SOPKO: Good afternoon, Your Honor—or morn­
ing, Jacqueline Sopko on behalf of the State.
MR. CIOLEK: Good morning, Your Honor; Doug Ciolek,
pro se plaintiff, applicant.
THE COURT: All right, Mr. Ciolek, be seated. As I
understand it your—your memorandum or brief
you’re conceding that you don’t meet the justifiable

App.8a

need either in the version that preceded the April
3rd amendment or the April 3rd amendment; is
that correct?
MR. CIOLEK: That is correct.
THE COURT: All right, so as far as the Chief or his
investigator, you’re conceding you do not meet
the requirements. Your position really is that
under the Second Amendment and Article 1,
Paragraph 1 of the Jersey Constitution that is
unconstitutional.
MR. CIOLEK: That is correct. And—and just to elabo­
rate that, I—I’m hoping that we can all agree that,
that is the only disqualifier in my apphcation, the—
THE COURT: No, I want to—
MR. CIOLEK: —justifiable need.
THE COURT: —put it out on the record.
MR. CIOLEK: Yes, sir.
THE COURT: I—is it the only disqualifier?
MS. SOPKO: Yes, Judge; that’s the only disqualifier
at this time is the justif—the justifiable need
requirement.
THE COURT: All right, I’ll hear from you. Do you
want to be heard at all?
MR. CIOLEK: No, in fact—
THE COURT: I know that—I know that you waived
oral argument.
MR. CIOLEK: Yes, sir.

App.9a

THE COURT: And I called you in only because if you
wanted to say something, your brief is very
thorough. It’s very comprehensive.
MR. CIOLEK: Thank you.
THE COURT: You’ve cited a number of cases. I can’t
say I read them all, but I think I’ve read most of
them to be honest with you. I had difficulty finding
those cases that went back to 1833.
MR. CIOLEK: Me too.
THE COURT: Okay, well just so you know. Do you
want to be heard at all?
MS. SOPKO: Yes, Your Honor, I do. As you’re aware
the 2C:58-4c states that an issue—permit to carry
there must be a justifiable need. And as I said
before the State is not contesting that Mr. Ciolek
has any disabilities. He passed a background
check; that was not the issue at all. It—the only
issue is he does not have an urgent necessity for
self-protection. There are no threats or previous
attacks in his certification. He says that. He said
that the—he—there’s—he only wants this permit
to carry for general self-defense. And that simply
is not the threshold.
The—you know, the Second Amendment is not
immune from reasonable limitations and that’s
in Crespo. This issue has already been litigated
in Wheeler. And the New Jersey Supreme Court
found that justifiable need passes constitutional
review. This—this requirement prevents danger
to the mun—to the community. It is a legitimate
regulatory goal. It does not burden more conduct

App.lOa

than reasonably necessary to stir up the State’s
purpose.
And I just—I wanted to cite since Your Honor
did mention, Mr. Ciolek cited two cases that he
relies on; one was Heller and one was McDonald.
I just wanted—
THE COURT: Well he relies upon more cases than
that, but—
MS. SOPKO: Yes, but the two that in his supplemen­
tary brief he—
THE COURT: He starts out with Heller I, which was
in 2008, and we’re up to Heller III so far. And he—
MS. SOPKO: Right.
THE COURT: —cites to McDonald which was in 2010.
MS. SOPKO: Yes, and I just would like to say that in
Heller it’s not a right to keep and carry any
weapon whatsoever in any manner whatsoever for
whatever purpose. The Second Amendment has
limitations. The States, through their police power,
can have this limitation for a permit to carry.
We’re not restricting his rights to own his firearm
in his place of business, nor his home. This is
only for a permit to carry in the public.
If Your Honor has any other questions for me, I
would submit.
THE COURT: No, this is a summary judgment appli­
cation as a matter of fact. As Mr. Ciolek has
indicated in response to my question, he has
waived any oral argument on the matter. I brought
the matter in. He concedes that he was denied a
permit to carry a handgun by the Denville Chief

App.lla

of Police. And he’s taken—he’s exercising his right
to appeal and he’s doing it by way of summary
judgment.
I have extensive notes here and I’m going to
refer to them if I can. It was necessitated by the
comprehensive paperwork that I received. Mr.
Ciolek challenges the constitutionality of New
Jersey’s justifiable need requirement as violative
of the Second Amendment of the U.S. Constitution
and Article 1, Paragraph 1 of the New Jersey
Constitution.
He argues because the justifiable need requirement
and any constitutional right to carry a handgun
in the public is, in reality, non-existent in this
State. He statistically points out some information.
I understand where he says he got the statistics
from. He even at one point points to a certification
of Lieutenant Genova who formerly headed the
Firearms Unit. He retired, then it was taken over
by Lieutenant Reed (phonetic). And now it’s being,
I guess, supervised by Mazzagatti (phonetic).
But even though he finds that the justi—and this
is his finding, not mine—justifiable need require­
ment in effect indicates that there is a non­
existent requirement in this State that has to be
met, but quite frankly there are people who are
granted the right to carry in public as they
establish a justifiable need.
I probably should point out that the justifiable
need definition existed for the longest time in
2C: 58-4c and d. And it was amended—I believe
it was April 3rd of 2017. As I recall that amend­
ment, which liberalized quite frankly in my view

App.l2a

the definition of justifiable need to serious threats
and reasonable, as I recall it, reasonable alterna­
tives. I can cite the language specifically and
perhaps I should.
Prior to April 3rd, a justifiable need was the
urgent necessity for self-protection, as evidenced
by specific threats or previous attacks which
demonstrate a special danger to the applicant’s
life that cannot be avoided by means other than
by issuance of a permit to carry a handgun.
On April 3rd that was amended and added “serious
threats” to the circumstances that may demon­
strate a special danger to the applicant’s life that
could be specified in the written certification of
“justifiable need.” In addition the revised regula­
tion specifies that a permit to carry a handgun
can be issued based on a special danger to the
applicant’s life that cannot be avoided by other
reasonable means, other than be issuance of a
permit to carry a handgun.
This basically was an effort by the former gover­
nor—Governor Christie—to modify and make it
easier to satisfy the justifiable need. I know there
is an Assembly Bill, 2758, that’s been out of Com­
mittee I think earlier in the week—excuse me,
maybe earlier in the month, which would place by
statute right into the bill the former definition.
When the amendment was made back on April 3rd,
2017—now I’m just going from my memory, I
believe the legislature instituted an action against
the governor. And the current Attorney General,
I also believe, has withdrawn opposition to that
litigation. I don’t know what’s happened to the

App.l3a

litigation. If either one of you do, I’d be happy to
get the information, but I really don’t know.
But at any rate, Mr. Ciolek is familiar with the
other definition that preceded the April 3rd
amendment. And he’s familiar with the current
definition. And he candidly admits, “I can’t satisfy
either one.” He’s also familiar with the long­
standing cases. He cites In re Preis in 118 N.J.
564. And he cites it for the proposition—and I’ve
cited it many times—that generalized fears for
personal safety are inadequate. So he’s aware of
that.
He’s also aware of the Siccardi case in 59 N. J.,
that was the theater manager case; In re Applica­
tion of X, that was the diamond dealer; Riley v.
State, that was the doctors who worked in the
urban hospitals; In re Borinsky, they were the
fugitive recovery agents who were all denied per­
mits to carry. My point is that Mr. Ciolek is
familiar with the cases that normally are cases
cited in these applications.
He has several arguments and one of the argu­
ments is based upon the fact that the Second
Amendment protects the right of an individual
to keep and bear arms for self-defense. And there
he cites the—what I’ll call—Heller I, the 2008
decision. And there’s a distinction between keep
and bear arms. Anybody can keep a firearm or a
handgun, I should say, in their residence. They
can keep it in their place of business. Although
quite frankly not everybody can use it.
I forget whether Valentine that he cited was the
case where the handgun was in the business. But

App.l4a

the person that pulled the handgun was either
the manager of the business and not the owner,
and therefore the manager was not protected. But
at any rate he said bear arms means just that,
you have the right to bear arms for self-defense
in public. Now there are some limitations; I’ll get
into them.
And he also cites McDonald, the 2010 case, basic­
ally indicating that the Second Amendment is
made applicable to the States through the Four­
teenth Amendment. And he still further says that
the justifiable need requirement violates the
U.S. Constitution that I mentioned and also
Article 1, Paragraph 1 of the New Jersey Con­
stitution.
He quotes in his brief the expressed language of
Article 1, Paragraph 1, and unlike the Second
Amendment in the Federal Constitution, the
Second Amendment has language to the effect that
it states the right of the people to keep and bear
arms shall not be infringed. And he goes into what
“infringed” means. Article 1, Paragraph 1 of the
New Jersey Constitution is not that clear. It talks
in terms of all persons are by nature free and
independent and have certain natural and—and
unalienable rights among which are those of
enjoying and defending life and property, of
acquiring, possessing, and protecting property, and
of pursuing and obtaining safety and happiness.
His argument is that by way of implication or
interpretation or inference that makes Article 1,
Paragraph 1 equivalent to the Second Amendment
to the extent as it relates to the right to carry a
firearm in public. As I’ve just pointed out the right

App.l5a
is not specifically stated in Article 1, Paragraph 1
as it is in the Second Amendment. But he indicates
that it was contemplated and it’s just a different
way of expressing or describing self-defense.
He argues further that the right to self-defense
is a natural right. It preexisted the Constitution.
It’s a—the Constitution is just a document that
serves as a testament to protect that former
natural right. And he goes back and he cites the
Magna Carta. He cites cases and treatise going
back to the 1700s and early 1800s. He quotes in
McDonald that self-defense is a basic right
recognized by many legal systems from ancient
times to the present day.
He even does, as I recall, a comparison of other
States and maybe that was in one of the treatise
that he referenced, but as a comparison to other
States. And he basically indicates that New Jersey
is in a minority. Somehow or another I get the
number eight States similar to New Jersey being
in the minority. He does concede that New Jersey
has a compelling interest in deterring crimes.
But he says that’s quite frankly geared more
towards criminals. They’re the ones that get the
guns, not law-abiding citizens. Then he argues
further, hey most criminals, even under the current
law, would not qualify for a permit to carry.
He then goes on and in his brief for the most
part talks about strict scrutiny. And he indicates
strict scrutiny is the test that I should apply. I’m
saying that because I’m going to deal with some
cases that he has cited where it’s not strict
scrutiny; it’s intermediate scrutiny that should
be applied. And in his brief he does—he does, at

App.l6a

the end of the brief, maybe devote—and it’s a 44page brief with attachments. He does devote maybe
to a page to intermediate scrutiny.
In making the strict scrutiny argument, he is indi­
cating that New Jersey’s statute is not narrow—
narrowly tailored as it should be. And quite
frankly he’s saying that—well a person that meets
the qualifications of—meets the qualifications from
anybody that should apply for a firearm’s pur­
chaser identification card and one that has the
necessary training, even under the current law,
is all that is needed. So he emphasized that the
statute—the justifiable need statute is not nar­
rowly tailored.
He submits his criteria, not the legislature’s as
interpreted by our New Jersey Courts and a
Federal Court, is what should control. If you
have background checks and an-has reasonable
training requirements, they’re things that are
already in existence, that’s all that’s needed.
That’s as narrow as you have to tailor the statute.
I find from experience and I can’t make this a basis
of my decision and I do not for a reviewing court,
the training should be substantially equivalent
to that of the Police Training Commission. And I
very often do not see anything nearly comparable.
But at any rate, he’s familiar also with Wheeler.
And he cites Wheeler. And he cites it to assist
him in his argument. And In re Wheeler in 433
Super., the court ruled on—and it’s an Appellate
Division decision. The court—and it’s a 2013
decision. The court ruled on the standard of review
of a Second Amendment challenge to the justifiable
need requirement. Our Appellate Division held

App.l7a
that intermediate scrutiny was the scrutiny to
be applied, not strict scrutiny. And as I will
indicate in a few minutes, Hellers in accord with
that as are other cases.
But our Appellate Division said intermediate
scrutiny, not strict scrutiny, should apply and
that the justifiable need provision was constitu­
tional based on such an analysis. Mr. Ciolek
indicates if I agree that Wheeler was correctly
decided, then I must adhere to it and one of the
points in his brief must be rejected. I could tell
Mr. Ciolek he hasn’t been in here before to my
recollection. I have cited Wheeler and I have used
Wheeler in other cases, so I obviously agree with
Wheeler and I’m bound by it whether I disagree
with it or not.
He argues to me further that Hellers holding is
not limited to the hearth and home. That—that’s
what he’s been arguing throughout. What’s the—
Heller was a case where the District of Columbia—
and by the way, Wrenn is a District of Columbia
case. Hellers a District of—a lot of these cases
come out of the District of Columbia. And it’s the
same Chief of Police that seems to be on the target
in all these cases.
But at any rate, I would agree with Heller to the
extent that—you know what I mean, it’s—it’s not—
you can’t pass a law that a person can’t have a
weapon in their home—a handgun in their home.
But that’s—we’re going beyond that right now.
Mr. Ciolek continues to argue that the right to
personal security or the law of necessity, that
natural lights—rights under Article 1, Paragraph

App.l8a

1 of New Jersey’s Constitution include the right
to keep and bear arms within the right of selfdefense in non-sensitive public places. I’ve used
“non-sensitive” more than once. And Mr. Ciolek
concedes that there are some sensitive places
such as government offices or schools. And Heller
says that too that guns should not be allowed. But
he goes on-aside from the strict scrutiny argument,
he goes on and makes a number of other argu­
ments again relying upon a number of cases that
are really cases that follow, not by way of opinion,
but follow by time Heller and McDonald.
Again he emphasized the—to keep firearms and
to bear firearms, or handguns in this case, they’re
two different things. And if the founders of our
country and the individuals that pass the Con­
stitution wanted to say they were the same, they
wouldn’t have used two different words. “Keep”
means to keep it. “Bear it” means to carry it. Again,
self-defense is a natural right. It’s not limited to
a location such as a home or a business. He argues
that it’s a right of the individual.
He even went back, and I found with interest, he
said George Washington carried a firearm. Thomas
Jefferson carried a firearm—handgun. And he even
designed his own—I can’t think of the word,
holster. I think he even mentioned that Patrick
Henry on the way to court carried a handgun.
That’s how far back he's delved into the history.
He still says to me one canst—one constitutional
right such as the Second Amendment should not
be treated less favorably than another. And I
think that argument came up when he was
analogizing the First Amendment right to the

App.l9a

Second and others. He’s saying to me that under
the pretense of regulation, the justifiable need
standard is in effect destroying the actual right.
And again all you really need is a background
check and some reasonable training and that’s
already in place.
When I looked at Heller III, Heller III brought
forth—and Heller III was a 2015 decision. Heller
III brought forth a number of general principles
and I was kind of like why did I read the first
two cases when all I had to do was read Heller
Illto get some of the information. But it references
Heller, being the first decision, and it indicated
in Heller, first we speak—we ask whether the law
impinges upon Second Amendment rights. That is
whether it has more than a de minimis effect on
the right to keep and bear arms. Second, if it
does, we evaluate it under the appropriate level
of constitutional scrutiny.
And the court in Heller ///said, “We determined
that intermediate scrutiny, not strict scrutiny, is
the proper yardstick because the laws do not
severely limit the possession of firearms.” I empha­
size that because his argument to me or one of his
arguments to me is I should apply strict and
relying upon the cases he’s relying upon, those
cases indicated that intermediate scrutiny, not
strict scrutiny, is the proper yardstick to use.
Intermediate scrutiny had its genesis in the
Supreme Court’s equal protection and free speech
—free speech jurisprudence.
For those that may not be familiar, intermediate
scrut—scrutiny is the middle ground. It offers
proper protection in the many instances in which

App.20a

a statute adversely effects constitutionality pro­
tected interests, but warrants neither automatic
condemnation such as str—strict scrutiny would
imply, nor near automatic approval as is implicit
in rational basis review. It is the middle ground.
It essentially imposes a balancing test and that
is the law is constitutional if the governmental
interest outweighs the burden on the constitutional
right and cannot be achieved by means that do
not infringe rights as significantly.
I think it was the balancing thing that he was
critical of in Justice Breyer’s concurring view.
But at any rate, intermediate would mean that
the fit between the challenged regulation and the
asserted rejection need only be reasonable not
perfect. Mr. Ciolek indicates there is no fit
between the two. And as we know from Heller III,
the challenged law need not be the least restrictive
or least intrusive means of achieving the govern­
ment’s interest.
But we also know that the nature of firearm
regulation requires ample deference to the
legislature. Now that’s what the case law in the
federal system says. That’s what Heller III says.
And I will quote, “The legislature is far better
equipped than the judiciary to make sensitive
public policy judgments, within constitutional,
limits concerning the dangers in carrying firearms
and the manner to combat those risks. Firearm
policy is a complex and dynamic issue implicating
vast amounts of data that the legislature is far
better equipped to gather and ana—analyze.”
In fact it went on and indicated the data that
does exist is either incomplete or influenced by

App.21a

partisanship. Scholars have reached few solid
conclusions to date. There’s data that exists to
support both sides. And the court noted the dif­
ficulty lies in separating partisanship and under­
lying attitudes. To—quite frankly, as you read all
these cases from the different Circuits, you really
don’t know until the Supreme Court speaks—and
I’m talking about the United States Supreme
Court—what the test really is. I can only go with
what I have the test to be now, because in my
view the Circuits are not even agreeing on the
same thing.
I’m trying to think of a legal word to say that it’s
kind of very confusing. But at any rate, interme­
diate scrutiny is the flexible framework that
allows for different perspectives and range of
approaches. It does not require the single best
disposition to a problem. And the Heller III court
said, “The risk inherent in firearms and other
weapons distinguishes the Second Amendment
right from other fundamental rights.” That doesn’t
mean, as I’ve already referenced, that the Second
Amendment is not an important amendment or an
amendment that is not favored or treated less
favorably than other amendments.
The Heller court said, “The risk inherent in fire­
arms and other weapons distinguishes it—the
Second Amendment from other fundamental
rights.” And goes on to say, “The reality of gun
violence means constitutional analysis should
incorporate deference to the legislature.” So
they’re really saying the legislature is better suited
to handle this than we are. By the way, when

App.22a

I’m talking about Heller III, we’re in the Appel­
late Division in the federal system.
As a matter of fact talking about the courts and
giving certain things to the legislature, the legis­
lature being better equipped, there’s a cite and a
quotation from United States v. Masciandaro.
It’s the Fourth Circuit. It’s a 2011 decision. And
quoting from that, that court said, “This is serious
business. We do not wish to be even minutely
responsible for some unspeakably tragic act of
mayhem because in the peace of our judicial
chambers we miscalculated as to Second Amend­
ment rights. If ever there was an occasion for
restraint, this would seem to be it.” Again that’s
in support of the legislature making certain deci­
sions.
Heller again says to pass constitutional muster,
it must promote a substantial governmental
interest that would be achieved less effectively
absent the regulation. And that the means chosen
are not substantially broader than necessary to
achieve that interest. Mr. Ciolek argues that yes, it
is overly broad; substantially, in my view, it is not.
The harms to be prevented by the regulation must
be real, not merely conjectural, and that the
regulation will in fact alleviate these harms in a
direct and material way. And there are some
examples in the decision. Ban on assault weapons
is one that’s in the governmental interest and is
not protected by the Second Amendment.
Heller I indicated that long-standing firearm
regulations are presumptively lawful. And in that
regard Mr. Ciolek cites a case that—or cites a

App.23a

circumstance where the case was an act—enacted
in 1901. He says that’s long-standing. In the
federal case involving—of my Passaic brother in—
in Passaic and one of my brother in—that was
seated here in Morris County, that court—the
Appellate Court in the federal system found that
New Jersey has had these restrictions for 90 years,
not as exactly worded. I think Mr. Ciolek pointed
out that it was the 1966 enactment that should
control, not the 90 years as found by the Federal
Appellate Court.
But at any rate, we’re given two intermediate
scrutiny examples. One protecting police officers
by enabling them to determine in advance whether
guns may be present at a location. And two, aiding
in crime control; that comes from Heller too.
Obviously there’s an interest in protecting police
officers and there’s an interest in promoting
public safety. Heller does not dispute that these
are substantial governmental interests.
Another case relied upon by Mr. Ciolek is the
Marzzarella case. And it discusses Heller I and
talks about the rights with respect to guns at the
time of the ratification of the Constitution. So
Marzzarella would go back to when our Federal
Constitution was ratified. And the same cases—
it’s not limited to militia, because that appears
also on the Second Amendment, because people
could still hunt. And back then they did hunt;
they hunted for food.
But Marzzarella says that the right protected by
the Second Amendment is not unlimited, citing—
amongst other things—McDonald. And it gives
us some examples. It does not extend to all types

App.24a

of weapons, only those to typically possessed by
law-abiding citizens. And an example would be—
and it’s right in the decision—a short-barreled
shotgun. That’s not protected.
Other examples are prohibitions against felons,
individuals who are mentally ill, carrying firearms
in sensitive places, which Mr. Ciolek—he concedes
to these things. And the sensitive places, as I’ve
already mentioned, are schools and governmental
buildings. But what’s interesting the case stands
for the proposition that the list is ex—is just an
example; it’s not exhaustive.
And it again emphasizes that Heller did not
purport to fully define all the contours of the
Second Amendment. And accordingly much of the
scope of the right remains unsettled. Yes, I think
I already mentioned that because the Circuits
are not in agree—in agreement as to the inter­
pretation and thus the extent of the protection
that’s been espoused in Heller.
As I recall Marzzarella was a case where there
was a handgun that had the identifying informa­
tion ground off. And the court said that unmarked
firearms have a greater flexibility to be utilized
in illegal activities. Then it gave an example that
pipe bombs are not really protected under the
Second Amendment because they have a tendency
to be used in violent crimes on unsuspecting
victims.
I read Pantano—In re Pantano in 429 Super. 478.
And I reference really pages 486, 87—I guess
through 480—I guess through 490.1 did it because
I thought that Pantano had been granted certi-

App.25a

fication by our Supreme Court and then I believe
I read that Justice Rabner indicated cert would
not be granted. But In re Pantano is an Appel­
late Division decision. And in it our Appellate Divi­
sion said, “New Jersey courts have failed to ex­
tend the holding of Heller beyond its possession
within the home for self defense.” It cites In re
Dubov that the Prosecutor mentioned. It cites
Crespo v. Crespo. And of course Heller was that
District Court case that said you cannot totally
prohibit handgun possession in a home.
But Heller left unanswered whether the Second
Amendment’s protections extend beyond the home.
And that’s where we’re getting all this different
case law from the Districts. But our Appellate
Division said the State limitations on the right
to carry were subject to intermediate scrutiny,
which I’ve already addressed. The statutes are
presumed constitutional. And absent a clear
expression of law from the United States Supreme
Court, our courts are not going to disturb settled
law. And there’s no clear indication that the
United States Supreme Court had signaled the
States to abandon its prior case law.
I’ve already pointed out In re—In re Preis, Siccardi,
X, the doctors. I’ve pointed out all those cases
that were contained in Mr. Ciolek’s—he’s familiar
with them. In Dubov, talking about the Heller
court—in Dubov the court said—talking about
Heller again, “The Court expressly indicated that
its holding did not require invalidation of statutes
that require a license to purchase or possess a
firearm.” Well the real issue here is to bear in
public places. But if we’re dealing with long-

App.26a

standing law, quite frankly I think it remains.
But even Marzzarella said that the scope of the
Second Amendment right remains unsettled.
So our court in the Appellate Division in Pantano
said, “In sum, given the presumption of our law’s
constitutionality, the lack of clarity that the
Supreme Court in Heller intended to extend the
Second Amendment right to a state regulation of
the right to carry outside the home, and the Second
Circuit’s explicit affirmation of a law similar to
ours,” they affirm. And find that the constitutional
rights were not infringed.
And when they’re talking about that federal
decision, they are talking about Drake v. Filko.
That’s Judge Filko who sits in Passaic County—
who sat in Passaic County. There was a Judge
Jerejian who sits in Bergen. And Judge Manahan
who sat here in Morris. And in Drake v. Filko,
which quite frankly was a 2013 decision,
Marzzarella was cited. Intermediate scrutiny was
again the test. And New Jersey’s justifiable need
qualified in the Filko court as long-standing, pre­
sumptively lawful regulation. And presumptively
lawful regulatory measures are exceptions to the
Second Amendment guarantee.
And again that the justifiable need to publicly
carry a handgun for self-defense is a presumptively
lawful, long-standing license—licensing provision
under the teachings of Heller and Marzzarella.
And that it enjoys presumptively—presumptive
constitutionality. And that there is not—not
unbridled discretion given to officials because
New Jersey’s law are clear and specific. And it
distinguishes again between strict scrutiny, which

App.27a

Mr. Ciolek asked me to apply, and intermediate
scrutiny, which I am applying.
And the finding is that the challenged law does
not burden more conduct than is reasonably
necessary. I can comment on—briefly on some
cases cited by Mr. Ciolek. One of the recent that
I see popping up is Wrenn v. District of Columbia.
Again as I pointed out it’s a District of Columbia
case, the same chief. And the test was good reason,
proper reason, whatever the circumstance may be.
And that case is favorable to the “bear” definition.
But that court really indicated—since the applicant
there was seeking injunctive relief, that based
upon that record there was no testimony that it
did not meet the intermediate scrutiny. And quite
frankly I find that, that is not at all helpful to
me or really to the argument of the apphcant here.
In Clark v. Jeter; a case also cited, it was again
intermediate scrutiny. And that’s an older case.
And that case really dealt with the State—of the
Commonwealth of Pennsylvania that placed the
statute of limitations of six—six years on paternity
issues and that—that would be unreasonable. And
that’s what the court found.
Another case cited by Mr. Ciolek was Washington
v. Glucksberg. That case was an assisted suicide
case and strict scrutiny was applied. And that’s
where you got the narrowly tailored. And of course
I’ve already found that intermediate scrutiny is
what is applicable here.
So I think one of the reasons why Mr. Ciolek
said he’s waiving oral argument and I can decide
it basically on the papers is because he knew

App.28a

where I’d have to go with this decision and that’s
where I’m going. I would have to find that there’s
no genuine issue as to any material fact. And I’d
have to base that on everything that I have before
me and all the legitimate inferences that could
possibly or permissibly be drawn there from.
And having said a lot of things, probably not
interesting to everyone, but I’m going to deny
the application for summary judgment. You can
do whatever you feel is appropriate. I’ll need an
order to that effect.
MS. SOPKO: Your Honor, I will provide an order.
MR. CIOLEK: Thank you, Your Honor.
THE COURT: All right. You know Mr. Ciolek pointed
out, Ms. Sopko, that you didn’t really address
the Article I, Paragraph 1 New Jersey Constitution
argument. I mean I did, because the cases dealt
with it. I didn’t ask you, was that your intention?
MS. SOPKO: Your Honor, I was going to address it
on the record today, but since Mr. Ciolek did
not—since he waived oral argument, I decided it
wasn’t necessary.
THE COURT: All right. All right, thank you. And
I’ll—I’ll—we’ll either send that check—that money
order back to you, I’ll find out.
MR. CIOLEK: Okay; all right, thank you, Judge.
(Hearing concluded)

App.29a

ORDER OF THE SUPERIOR COURT
OF NEW JERSEY MORRIS COUNTY
DENYING FIREARMS PERMIT
(MARCH 14, 2018)
SUPERIOR COURT OF NEW JERSEY
MORRIS COUNTY-LAW DIVISION
CRIMINAL PART
IN THE MATTER OF THE APPEAL
OF THE DENIAL OF A NEW JERSEY PERMIT
TO CARRY A HANDGUN IN THE NAME OF
DOUGLAS F. CIOLEK, ESQ.

Order 17-22
Before: Honorable Salem Vincent AHTO, J.S.C.
THIS MATTER having been opened to the Court
on March 14, 2018, upon application of Douglas Ciolek,
Esq. Pro Se and Fredric M. Knapp, Esq., Morris County
Prosecutor, on behalf of the State of New Jersey,
with Assistant Prosecutor Jacqueline A. Sopko, Esq.,
appearing on behalf of the State and objecting to
Petitioner’s request, and the Court having reviewed
the papers submitted, hearing testimony, and the Court
having fully considered the matter;
IT IS on this 14th day of March. 2018,
ORDERED that Douglas P. Ciolek’s appeal from
the denial of his application for a Permit to Carry a

App.30a

Handgun with the Township of Denville Police Depart­
ment has been denied.
Summary Judgment Denied.

Is/ Hon. Salem Vincent Ahto
J.S.C. (Retired and
Temporarily Assigned on Recall)

App.31a

RELEVANT STATUTORY PROVISIONS
N.J. STAT. § 2C:58-4
Permits to Carry Handguns
c.

Investigation and Approval

Each application shall in the first instance be
submitted to the chief police officer of the municipahty
in which the apphcant resides, or to the superintendent,
(l) if the applicant is an employee of an armored car
company, or (2) if there is no chief police officer in the
municipahty where the applicant resides, or (3) if the
apphcant does not reside in this State. The chief police
officer, or the superintendent, as the case may be, shall
cause the fingerprints of the applicant to be taken and
compared with any and all records maintained by the
municipality, the county in which it is located, the
State Bureau of Identification and the Federal Bureau
of Identification. He shall also determine and record
a complete description of each handgun the applicant
intends to carry.
No apphcation shall be approved by the chief police
officer or the superintendent unless the applicant
demonstrates that he is not subject to any of the
disabilities set forth in 2C:58-3c., that he is thor­
oughly familiar with the safe handling and use
of handguns, and that he has a justifiable need to
carry a handgun.
Each application form shall be accompanied by a
written certification of justifiable need to carry a
handgun, which shall be under oath and, in the
case of a private citizen, shall specify in detail the
urgent necessity for self-protection, as evidenced

App.32a

by specific threats or previous attacks which
demonstrate a special danger to the applicant’s
life that cannot be avoided by means other than
by issuance of a permit to carry a handgun.
Where possible, the applicant shall corroborate
the existence of any specific threats or previous
attacks by reference to reports of the incidents to
the appropriate law enforcement agencies.
If the application is not approved by the chief
police officer or the superintendent within 60 days
of filing, it shall be deemed to have been approved,
unless the applicant agrees to an extension of
time in writing.
d.

Issuance by Superior Court; Fee

If the application has been approved by the chief
police officer or the superintendent, as the case may
be, the applicant shall forthwith present it to the
Superior Court of the county in which the applicant
resides, or to the Superior Court in any county where
he intends to carry a handgun, in the case of a non­
resident or employee of an armored car company.
The court shall issue the permit to the applicant if*,
but only if, it is satisfied that the applicant is a per­
son of good character who is not subject to any of the
disabilities set forth in subsection c. of N.J.S.2C:58-3,
that he is thoroughly familiar with the safe handling
and use of handguns, and that he has a justifiable
need to carry a handgun in accordance with the provi­
sions of subsection c. of this section. The court may at
its discretion issue a limited-type permit which would
restrict the applicant as to the types of handguns he
may carry and where and for what purposes the
handguns may be carried. At the time of issuance, the

App.33a

applicant shall pay to the county clerk of the county
where the permit was issued a permit fee of $20.
N.J. Admin. Code § 13:54-2.4
Application for a Permit to Carry a Handgun
(d) Each application form shall also be accom­
panied by a written certification of justifiable need to
carry a handgun, which shall be under oath and
which:
1 In the case of a private citizen, shall specify in
detail the urgent necessity for self-protection, as
evidenced by specific threats or previous attacks,
which demonstrate a special danger to the
applicant’s life that cannot be avoided by means
other than by issuance of a permit to carry a
handgun. Where possible, the applicant shall
corroborate the existence of any specific threats
or previous attacks by reference to reports of
such incidents to the appropriate law enforce­
ment agencies; or
2. In the case of employees of private detective
agencies, armored car companies and private
security companies, that:
i.

In the course of performing statutorily author­
ized duties, the applicant is subject to a sub­
stantial threat of serious bodily harm; and

ii.

That carrying a handgun by the applicant is
necessary to reduce the threat of unjustifi­
able serious bodily harm to any person.

App.34a

LETTER FROM CHIEF OF POLICE
(NOVEMBER 21, 2017)
TOWNSHIP OF DENVILLE
DEPARTMENT OF POLICE
CHRISTOPHER WAGNER, CHIEF
1st Mary’s Place
Denville, New Jersey 07834
Mr. Douglas F. Ciolek
4 North Ridge Road
Denville, NJ 07834
Dear Mr. Ciolek:
Please be advised that your application for a
permit to carry a handgun has been disapproved.
The reason for this denial is based upon our
findings during your background investigation and is
issued in accordance with N.J.S.A. 2C:58-4, where a
permit shall not be issued to an applicant who does
not demonstrate a justifiable need to carry a firearm
in the State of New Jersey.
If you wish to dispute the disapproval, you may
contact the Superior Court in Morristown within 30
days of receiving this letter to file for an appeals
hearing.
Sincerely,
/s/ Christopher Wagner
Chief of Police

App.35a

LETTER FROM CIOLEK APPEALING AGAINST
THE DECISION OF CHIEF OF POLICE
(DECEMBER 18, 2017)
DOUGLAS F. CIOLEK, ESQ.
4 NORTH RIDGE ROAD
DENVILLE, NJ 07834
dciolek@rrjhlaw.com
The Honorable Stephen J. Taylor, P.J.Cr. (via hand
delivery and CRRR mail)
Morris County Superior Court
Washington & Court Streets
P.O. Box 910
Morristown, NJ 07963
RE: In re Ciolek (Denial of permit to carry a handgun
of Douglas F. Ciolek)
Docket No.
Dear Judge Taylor:
I am the applicant for a permit to carry a handgun
whose application was denied by the Denville Chief
of Police. Pursuant to N.J.S.A. 2C:58-4e, please accept
this letter as my request for a hearing to appeal that
determination. I was told by a courthouse employee
that Your Honor serves as the judge who hears these
appeals. If I am mistaken, would you or your staff be
so kind as to forward this to the appropriate judge?
There is one more item that I need to raise with the
court at this time. My argument at this hearing will
include one based on the unconstitutionality of the
justifiable need requirement of N. J.S.A. 2C:58-4c. I have
a motion ready to be filed and served and can do so

App.36a

as soon as I receive some type of docket number from
the court. In the interim, may I ask of Your Honor
whether I can file it immediately thereafter or if
there will be some scheduling order in lieu of same?
Last, because of this motion, I am also providing
notice to the Attorney General’s office pursuant to R.
4:28-4(a)(l).
Thank you for your time and attention to this
matter.
Respectfully submitted,
Douglas F. Ciolek, Esq.
cc:

Chief Christopher Wagner, Denville Police Dept.CRRR & reg. mail
Fredric M. Knapp, Morris County ProsecutorCRRR & reg. mail
Christopher Porrino, N.J. Attorney GeneralCRRR and reg. mail
Colonel Patrick Callahan, Acting Superintendent,
N.J. State Police-CRRR & reg. mail

App.37a

NOTICE OF MOTION
FOR SUMMARY JUDGMENT
(JANUARY 2, 2018)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION: MORRIS COUNTY
IN RE CIOLEK
(Denial of Application for Permit to
Carry Handgun of Douglas F. Ciolek)

Docket No.: MRS-17-22
TO: Morris County Prosecutor’s Office
ON NOTICE TO: Office of the Attorney General of
New Jersey
PLEASE TAKE NOTICE that the undersigned will
apply to the above named Court at the Morris County
Superior Court, Morristown, New Jersey on the return
date for the hearing in this matter or as soon as
directed by the hearing judge, for an Order declaring
N.J.S.A. 2C:58-4(c)&(d) and N.J.A.C. 13:54-2.4(d) un­
constitutional and providing for the issuance of a
permit to carry a handgun within the State of New
Jersey.
PLEASE TAKE FURTHER NOTICE that in
support of the within application, the undersigned
shall rely upon the annexed Brief and Certification of
Counsel.

App.38a

PLEASE TAKE FURTHER NOTICE that the
within application is made pursuant to R. l:6-2(d)
and the undersigned waives oral argument.
IN COMPLIANCE WITH RULE 6:1-4, the original
of the within Notice of Motion is being sent to the
Clerk of the Morris County Superior Court or the office
of judge assigned to hear this matter for filing and a
copy is being sent to our adversaries within the time
prescribed by the Rules of Court.
Douglas F. Ciolek, Pro Se Plaintiff
By: /s/ Douglas F. Ciolek, Esq.
Dated: January 2, 2018

